Nos. 20-5767 and 20A52
IN THE SUPREME COURT OF THE UNITED STATES
WILLIAM EMMETT LECROY, JR., PETITIONER
v.
UNITED STATES OF AMERICA
(CAPITAL CASE)

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION TO PETITION FOR A WRIT
OF CERTIORARI AND TO APPLICATION FOR A STAY OF EXECUTION, via e-mail
and first-class mail, postage prepaid, this 22nd day of September 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 22, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST: 20-5767 and 20A52 LeCroy v. USA
JOHN R. MARTIN
MARTIN BROTHERS, P.C.
1099 ST. LOUIS PL.
ATLANTA, GA 30306
(404) 433-7446
JACK@MARTINBROSLAW.COM
SANDRA MICHAELS
965 VIRGINIA AVENUE, N.E.
ATLANTA, GA 30306
(404) 312-5781
SLMICHAELSLAW@GMAIL.COM
STEPHEN FERRELL
FEDERAL DEFENDER SERVICES
OF EASTERN TENNESSEE, INC.
800 SOUTH GAY STREET
SUITE 2400
KNOXVILLE, TN 37929
(865) 637-7979
STEPHEN_FERRELL@FD.ORG

